SIGAR                           Special Inspector General for
                                 Afghanistan Reconstruction




                                         SIGAR 14-93 Financial Audit




      USAID’s Partnership for Advancing Community
      Based Education in Afghanistan: Audit of Costs
      Incurred by CARE International




                                                  AUGUST
                                                    2014
SIGAR 14-93-FA/PACE-A
                                                     August 2014



SIGAR
                                                     USAID’s Partnership for Advancing Community Based Education in
                                                     Afghanistan: Audit of Costs Incurred by CARE International

                                                     SIGAR 14-93-FA
Special Inspector General for
Afghanistan Reconstruction                           WHAT THE AUDIT FOUND
                                                     Crowe Horwath LLP (Crowe Horwath) did not identify any internal control
WHAT THE AUDIT REVIEWED
                                                     deficiencies or instances of noncompliance with applicable laws, rules,
On April 10, 2006, the U.S. Agency for               regulations, and the terms and conditions of the cooperative agreement in
International Development entered into               its audit of costs incurred by CARE International (CARE) under the
cooperative agreement number 306-A-00-               Partnership for Advancing Community Based Education in Afghanistan
06-00518 with CARE International (CARE) to           program.
implement the Partnership for Advancing
                                                     As part of the audit, Crowe Horwath requested that CARE and the U.S.
Community Based Education in Afghanistan.
                                                     Agency for International Development provide prior audit reports and other
The program was intended to expand
                                                     assessments related to the Partnership for Advancing Community Based
community-based education by enhancing
                                                     Education project.
supporting structures and processes,
improving quality, and developing                    Crowe Horwath identified three findings from prior audits relating to CARE’s
cooperation between community-based                  contracting, CARE’s monitoring of subrecipients of cooperative agreement
education and Afghanistan Ministry of                funds, and the proper allocation of shared costs. However, Crowe Horwath
Education schools.                                   determined that CARE took adequate corrective action on all of them.

SIGAR’s financial audit, performed by Crowe          In Crowe Horwath’s opinion, CARE’s Special Purpose Financial Statement
Horwath LLP (Crowe Horwath), reviewed                presented fairly in all material respects, revenues received, costs incurred,
$30,973,141 in expenses incurred between             and the balance for the indicated period in accordance with requirements
April 10, 2006, and August 31, 2011. Crowe           established by SIGAR.
Horwath’s objectives were to (1) identify and        Crowe Horwath did not identify any ineligible costs (costs prohibited by the
report on significant deficiencies or material       contract, applicable laws, or regulations) or unsupported costs (costs not
weaknesses in CARE’s internal controls               supported by sufficient documentation to allow Crowe Horwath to determine
related to this cooperative agreement; (2)           their accuracy and allowability).
identify and report on instances of material
noncompliance with the terms of the award
and applicable laws and regulations,
                                                               Category           Questioned Costs Total    Ineligible   Unsupported
including any potential fraud or abuse;
                                                       Costs Incurred                       $0                  $0               $0
(3) determine and report on whether CARE
                                                       Total                                $0                  $0               $0
has taken corrective action on prior findings
and recommendations; and (4) express an
opinion on the fair presentation of CARE’s
Special Purpose Financial Statement. See
Crowe Horwath’s report for more details on            WHAT SIGAR RECOMMENDS
the audit objectives.
                                                      Crowe Horwath did not report any findings related to the Partnership for
In contracting with an independent audit
                                                      Advancing Community Based Education in Afghanistan program. Therefore,
firm and drawing from the results of a
                                                      SIGAR has no recommendations related to this audit.
contracted audit, SIGAR is required by
auditing standards to provide oversight of
the work performed. Accordingly, SIGAR
reviewed Crowe Horwath’s audit results and
found them to be in accordance with
generally accepted government auditing
standards.



       For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
August 27, 2014


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by CARE International under a U.S. Agency for
International Development cooperative agreement to provide support for the Partnership for Advancing
Community Base Education program.1 The audit, performed by Crowe Horwath LLP, covered the period April
10, 2006, through August 31, 2011, and expenditures of $30,973,141. Crowe Horwath did not report any
findings related to internal control deficiencies or instances of noncompliance related to this audit. Therefore,
SIGAR has no recommendations related to this audit.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




(F-029)




1   USAID cooperative agreement number 306-A-00-06-00518.
                        CARE International

               Special Purpose Financial Statement

Partnership for Advancing Community Based Education in Afghanistan

       For the Period April 10, 2006, through August 31, 2011

            (With Independent Auditor’s Report Thereon)
SIGAR                                                                     CARE International




Table of Contents
Transmittal Letter .................................................................................................................................... 1 

Summary .................................................................................................................................................. 2 

INDEPENDENT AUDITOR’S REPORT ON THE SPECIAL PURPOSE FINANCIAL STATEMENT ...... 5 

INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL ..................................................... 10 

INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE.................................................................. 12 

SECTION 1: Summary Schedule of Prior Audit, Review, and Assessment Findings .................... 14 




                                                               www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP

Crowe Horwath LLP is an independent member of Crowe Horwath International, a Swiss verein. Each member firm of Crowe Horwath International is a
separate and independent legal entity. Crowe Horwath LLP and its affiliates are not responsible or liable for any acts or omissions of Crowe Horwath
International or any other member of Crowe Horwath International and specifically disclaim any and all responsibility or liability for acts or omissions of
Crowe Horwath International or any other member of Crowe Horwath International. Crowe Horwath International does not render any professional
services and does not have an ownership or partnership interest in Crowe Horwath LLP. Crowe Horwath International and its other member firms are
not responsible or liable for any acts or omissions of Crowe Horwath LLP and specifically disclaim any and all responsibility or liability for acts or
omissions of Crowe Horwath LLP.
SIGAR                                           CARE International                                                1




                                                                      Crowe Horwath LLP
                                                                      Independent Member Crowe Horwath International

                                                                      1325 G Street NW, Suite 500
                                                                      Washington D.C. 20005-3136
                                                                      Tel 202.624.5555
                                                                      Fax 202.624.8858
                                                                      www.crowehorwath.com

Transmittal Letter
July 11, 2014

To the Board of Directors of CARE International in Afghanistan
Shar e Naw, Haji Yaqoob Square
Kabul, Afghanistan


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We appreciate the opportunity to provide to you our draft report regarding the procedures that we have
completed during the course of our audit of CARE International’s (“CARE”) cooperative agreement with
the United States Agency for International Development (“USAID”) funding the Partnership for
Advancing Community Based Education in Afghanistan (“PACE-A”) project.

Within the pages that follow, we have provided a brief summary of the work performed. Following the
summary, we have incorporated our report on the Special Purpose Financial Statement, report on
internal control, and report on compliance. We do not express an opinion on the summary or any
information preceding our reports.

When preparing our draft report, we considered comments, feedback, and interpretations of CARE
International, the Office of the Special Inspector General for Afghanistan Reconstruction, and USAID
provided both in writing and orally throughout the audit planning and fieldwork phases.

Thank you for providing us the opportunity to work with you and to conduct the financial audit of CARE
International’s PACE-A project.


Sincerely,



John Weber, CPA, Partner
Crowe Horwath LLP




                                         www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                              CARE International                                   2




Summary
Background
CARE International (“CARE”) entered into a cooperative agreement with the United States Agency for
International Development (“USAID”) to provide access for marginalized communities and their children to
quality education. This included the objectives to: expand access to community-based education,
strengthen community structures and processes that support education; strengthen the quality of
education; build the long-term capacity of civil society organizations to support community based
education; and develop modes of cooperation between community-based and Ministry of Education
(MoE) schools and promote MoE recognition and support of community based education. The project
was titled the Partnership for Advancing Community Based Education in Afghanistan (“PACE-A”) and,
was funded by cooperative agreement number 306-A-00-06-00518, which incorporated a ceiling of
$31,084,282. The agreement’s initial period of performance began on April 10, 2006, and had an
estimated completion date of April 09, 2011. Through subsequent modifications, the period of
performance was extended through August 31, 2011 and the ceiling was reduced to $30,973,141.

Throughout the project’s period of performance CARE collaborated with numerous implementing
partners, grantees, subcontractors, and USAID to execute upon the scope of work identified in the
cooperative agreement. As reported in CARE’s final report on the PACE-A project, results (unaudited by
Crowe) included, but were not limited to:

     Providing primary education to 88,830 students;
     Providing adult literacy education to 13,486 individuals;
     Training 3,186 primary grade teachers; and
     Training 552 adult literacy teachers.

The project was formally closed upon execution of modification number 14 dated November 12, 2013.

Work Performed
Crowe Horwath LLP (“Crowe”) was engaged by the Office of the Special Inspector General for
Afghanistan Reconstruction (“SIGAR”) to conduct a financial audit of CARE’s PACE-A project.

Objectives Defined by SIGAR
The following audit objectives were defined within the Performance Work Statement for Financial Audits
of Costs Incurred by Organizations Contracted by the U.S. Government for Reconstruction Activities in
Afghanistan:

Audit Objective 1 – Special Purpose Financial Statement
Express an opinion on whether the Special Purpose Financial Statement for agreement 306-A-00-06-
00518 presents fairly, in all material respects, revenues received, costs incurred, items directly procured
by the U.S. Government and balance for the period audited in conformity with the terms of the award and
accounting principles generally accepted in the United States of America or other comprehensive basis of
accounting.

Audit Objective 2 – Internal Controls
Evaluate and obtain a sufficient understanding of CARE’s internal control related to the award; assess control
risk; and identify and report on significant deficiencies including material internal control weaknesses.




                                            www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                            CARE International                                  3



Audit Objective 3 – Compliance

Perform tests to determine whether CARE complied, in all material respects, with the award requirements
and applicable laws and regulations; and identify and report on instances of material noncompliance with
terms of the award and applicable laws and regulations, including potential fraud or abuse that may have
occurred.

Audit Objective 4 – Corrective Action on Prior Findings and Recommendations

Determine and report on whether CARE has taken adequate corrective action to address findings and
recommendations from previous engagements that could have a material effect on the special purpose
financial statement.

Scope
The scope of the audit included the period April 10, 2006, through August 31, 2011, for the PACE-A
project. The audit was limited to those matters and procedures pertinent to the cooperative agreement
that have a direct and material effect on the Special Purpose Financial Statement (“SPFS”) and
evaluation of the presentation, content, and underlying records of the SPFS. The audit included reviewing
the financial records that support the SPFS to determine if there were material misstatements and if the
SPFS was presented in the format required by SIGAR. In addition, the following areas were determined
to be direct and material and, as a result, were included within the audit program for detailed evaluation:

     Allowable Costs;
     Allowable Activities;
     Cash Management;
     Equipment and Property Management;
     Matching
     Period of Availability of Federal Funds;
     Subrecipient Monitoring
     Procurement; and
     Reporting

Methodology
To meet the aforementioned objectives, Crowe completed a series of tests and procedures to audit the
SPFS, tested compliance and considered the auditee’s internal controls over compliance and financial
reporting, and determined if adequate corrective action was taken in response to prior audit, assessment,
and findings and review comments, as applicable.
For purposes of meeting Audit Objective 1 pertaining to the SPFS, transactions were selected from the
financial records underlying the SPFS and were tested to determine if the transactions were recorded in
accordance with the basis of accounting identified by the auditee; were incurred within the period covered
by the SPFS and in alignment with specified cutoff dates; were charged to the appropriate budgetary
accounts; and were adequately supported.

With regard to Audit Objective 2 regarding internal control, Crowe requested and the auditee provided
copies of policies and procedures and verbally communicated those procedures that do not exist in
written format to provide Crowe with an understanding of the system of internal control established by
CARE. The system of internal control is intended to provide reasonable assurance of achieving reliable
financial and performance reporting and compliance with applicable laws and regulations. Crowe




                                           www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
SIGAR                                           CARE International                                 4



corroborated internal controls identified by the auditee and conducted testing of select key controls to
understand if they were implemented as designed.

Audit Objective 3 requires that tests be performed to obtain an understanding of the auditee’s compliance
with requirements applicable to the cooperative agreement. Crowe identified – through review and
evaluation of the cooperative agreement by and between CARE and USAID, the Federal Acquisition
Regulation (“FAR”) and the USAID Acquisition Regulation (“AIDAR”) – the criteria against which to test
the SPFS and supporting financial records and documentation. Using sampling techniques, Crowe
selected expenditures, vouchers submitted to USAID for payment, procurements, property and equipment
dispositions, grants issued under the cooperative agreement and corresponding costs incurred, and
project reports for audit. Supporting documentation was provided by the auditee and subsequently
evaluated to assess CARE’s compliance. Testing of indirect costs was limited to determining whether
indirect costs were calculated and charged to the U.S. Government in accordance with the negotiated
indirect cost rate agreements (“NICRA”) and associated contract restrictions, and if adjustments were
made, as required and applicable.

Regarding Audit Objective 4, Crowe inquired of both CARE and USAID regarding prior audits and reviews
to obtain an understanding of the nature of audit reports and other assessments that were completed and
the required corrective action. There were prior audits, assessments, or reviews conducted over CARE’s
implementation of the PACE-A project.

Due to the location and nature of the project work and certain vendors and individuals who supported the
project still residing in Afghanistan, certain audit procedures were performed on-site in Afghanistan, as
deemed necessary.

Summary of Results
Crowe issued an unmodified opinion on the SPFS.

Crowe reported on both CARE’s compliance with the applicable laws, rules, regulations, and the terms
and conditions of the cooperative agreement and the internal controls over compliance.

Crowe also requested copies of prior audits, reviews, and evaluations pertinent to CARE’s financial
performance under the cooperative agreement. Per communications with CARE and USAID, there were
several OMB Circular A-133 audits conducted that pertained to CARE’s implementation of the project and
that are direct and material to the Special Purpose Financial Statement. Crowe, therefore, conducted
follow-up on corrective action pertaining to these reports.




                                         www.crowehorwath.com


© Copyright 2014 Crowe Horwath LLP
                                                                                   Crowe Horwath LLP
                                                                                   Independent Member Crowe Horwath International




   INDEPENDENT AUDITOR’S REPORT ON THE SPECIAL PURPOSE FINANCIAL STATEMENT


To the Board of Directors of CARE International in Afghanistan
Shar e Naw, Haji Yaqoob Square
Kabul, Afghanistan


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


Report on the Special Purpose Financial Statement

We have audited the Special Purpose Financial Statement (“the Statement”) of CARE International
(“CARE”), and related notes to the Statement, for the period April 10, 2006, through August 31, 2011, with
respect to the Partnership for Advancing Community Based Education funded by cooperative agreement
306-A-00-06-00518.

Management’s Responsibility for the Special Purpose Financial Statement

Management is responsible for the preparation and fair presentation of the Statement in accordance with
the requirements specified by the Office of the Special Inspector General for Afghanistan Reconstruction
(“SIGAR”) in Appendix V of Solicitation ID05130083 (“the Contract”). Management is also responsible for
the design, implementation, and maintenance of internal control relevant to the preparation and fair
presentation of a Statement that is free from material misstatement, whether due to fraud or error.

Auditor’s Responsibility

Our responsibility is to express an opinion on the Special Purpose Financial Statement based on our
audit. We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain reasonable assurance about
whether the Statement is free of material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in
the Statement. The procedures selected depend on the auditor’s judgment, including the assessment of
the risks of material misstatement of the Statement, whether due to fraud or error. In making those risk
assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the Statement in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s
internal control. Accordingly, we express no such opinion. An audit also includes evaluating the
appropriateness of accounting policies used and the reasonableness of significant accounting estimates
made by management, as well as evaluating the overall presentation of the Statement.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for
our audit opinion.




                                               (Continued)

                                                                                                                 5.
Opinion

In our opinion, the Statement referred to above presents fairly, in all material respects, revenues received,
costs incurred, and balance for the indicated period in accordance with the requirements established by
the Office of the Special Inspector General for Afghanistan Reconstruction in Appendix V of the Contract
and on the basis of accounting described in Note 1.

Basis of Presentation

We draw attention to Note 1 to the Statement, which describes the basis of presentation. The Statement
was prepared by CARE in accordance with the requirements specified by the Office of the Special
Inspector General for Afghanistan Reconstruction in Appendix V of the Contract and presents those
expenditures as permitted under the terms of contract number 306-A-00-06-00518, which is a basis
accounting other than accounting principles generally accepted in the United States of America, to
comply with the financial reporting provisions of the Contract referred to above. Our opinion is not
modified with respect to this matter.

Restriction on Use

This report is intended for the information of CARE International, the United States Agency for
International Development, and the Office of the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18 U.S.C. 1905
should be considered before any information is released to the public.

Report on Other Legal and Regulatory Requirements

In accordance with Government Auditing Standards, we have also issued reports dated July 11, 2014, on
our consideration of CARE’s internal controls over financial reporting and on our tests of its compliance
with certain provisions of laws, regulations, contracts, and other matters. The purpose of those reports is
to describe the scope of our testing of internal control over financial reporting and compliance and the
results of that testing, and not to provide an opinion on internal control over financial reporting or on
compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards in considering CARE’s internal control over financial reporting and compliance.




                                                          Crowe Horwath LLP

July 11, 2014
Washington, D.C.




                                                                                                           6.
                                                                 CARE International
                                                        Special Purpose Financial Statement
                                                Cooperative Agreement Number 306-A-00-06-00518
                                               For the Period April 10, 2006, through August 31, 2011


                                                                                                              Questioned Costs

                                            Budget                       Actual                 Ineligible            Unsupported   Notes
Revenues
USAID - 306-A-00-06-00518-00                    30,973,041                   30,973,041


Total Revenue                                   30,973,041                   30,973,041



Costs Incurred
Personnel                                        5,260,046                    5,260,046
Fringe Benefits                                  2,540,512                    2,540,512
Travel                                             204,343                      204,343
Equipment                                          214,623                      214,623
Supplies                                         1,764,846                    1,764,846
Contractual                                     15,962,952                   15,962,952
Other Direct Cost                                2,130,616                    2,130,616
Indirect Cost                                    2,895,103                    2,895,103                            
Total Costs Incurred                            30,973,041                   30,973,041


Fund Balance                                              0                            0




                        The accompanying notes to the Special Purpose Financial Statement are an integral part of this Statement.

                                                                                                                                            7.
                                  CARE International in Afghanistan
                          Notes to the Special Purpose Financial Statement
                        For the Period April 10, 2006, through August 31, 2011


Note 1. Basis of Presentation

The accompanying Special Purpose Financial Statement (the "Statement") includes costs incurred under
Agreement Number 306-A-00-06-00518-00 for the Partnership for Community Based Education in
Afghanistan (PACE-A) for the period April 10, 2006, through August 31, 2011. Because the Statement
presents only a selected portion of the operations of the CARE International in Afghanistan, it is not
intended to and does not present the financial position, changes in net assets, or cash flows of CARE
International in Afghanistan. The information in this Statement is presented in accordance with the
requirements specified by the Office of the Special Inspector General for Afghanistan Reconstruction
("SIGAR") and is specific to the aforementioned Federal award. Therefore, some amounts presented in
this Statement may differ from amounts presented in, or used in the preparation of, the basic financial
statements.


Note 2. Basis of Accounting

Expenditures reported on the accompanying Fund Accountability Statement are reported on the accrual
basis of accounting. Such expenditures are recognized following the costs principles contained in OMB
Circular A-122, Cost Principles for Non-Profit Organizations.


Note 3. Foreign Currency Conversion Method

Revenue and expenses are translated into U.S. dollars at the actual conversion rate in effect at the time
U.S. dollars are converted into Afghanis. The rate remains in effect until the next conversion.


Note 4. Revenues

CARE recognizes revenue when funds are expended. Therefore, revenues are set equal to the total
expenses of $30,973,041. CARE’s total cash received from USAID is $30,973,041, which is equal to the
total expenditures.


Note 5. Costs Incurred by Budget Category

The budget categories presented and associated amounts reflect the budget line items presented within
the final, USAID-approved agreement budget adopted as a component of the modification number 14 to
the contract dated November 12, 2013.


Note 6. Fund Balance

The fund balance presented on the Statement represents the difference between revenues earned and
costs incurred such that an amount greater than $0 would reflect that revenues have been earned that
exceed the costs incurred or charged to the contract and an amount less than $0 would indicate that
costs have been incurred, but are pending additional evaluation before a final determination of allowability
and amount of revenue earned may be made


Note 7. Currency

All amounts presented are shown in U.S. dollars.




                                               (Continued)

                                                                                                          8.
Note 8. Matching or Cost Share Expenditures (Exclude if not applicable)

CARE International in Afghanistan has a cost share requirement of $7,134,625. The total value of costs
incurred or in-kind contributions received during the period was $7,167,765. Matching costs are not
reflected in the Statement.


Note 9. Subrecipients

Following are the names of subrecipients and costs incurred for each subrecipient during the period.

 International Rescue Committee (IRC)           $7,614,427
 Catholic Relief Services (CRS)                 $2,807,171
 Aga Khan Foundation (AKF)                      $3,988,118
  Save The Children - UK (SC-UK)                 $602,448
 Social Volunteers Foundation (SVF)              $905,349
 Education & Aid Center (EAC)                      $45,439


Note 10. Subsequent Events

Management has performed an analysis of the activities and transactions subsequent to the period April
10, 2006, through August 31, 2011, period of performance. Management has performed their analysis
through July 11, 2014.




                                                                                                       9.
                                                                                         Crowe Horwath LLP
                                                                                         Independent Member Crowe Horwath International




                    INDEPENDENT AUDITOR’S REPORT ON INTERNAL CONTROL


To the Board of Directors of CARE International in Afghanistan
Shar e Naw, Haji Yaqoob Square
Kabul, Afghanistan


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller General of the United States, the Special Purpose Financial Statement (“the
Statement”) of CARE International (“CARE”), and related notes to the Statement, for the period April 10,
2006, through August 31, 2011, with respect to the Partnership for Advancing Community Based
Education in Afghanistan funded by cooperative agreement number 306-A-00-06-00518. We have
issued our report thereon dated July 11, 2014.

Internal Control over Financial Reporting

CARE’s management is responsible for establishing and maintaining effective internal control. In fulfilling
this responsibility, estimates and judgments by management are required to assess the expected benefits
and related costs of internal control policies and procedures. The objectives of internal control are to
provide management with reasonable, but not absolute, assurance that the assets are safeguarded
against loss from unauthorized use or disposition; transactions are executed in accordance with
management’s authorization and in accordance with the terms of the contract; and transactions are
recorded properly to permit the preparation of the Statement in conformity with the basis of presentation
described in Note 1 to the Statement. Because of inherent limitations in internal control, errors or fraud
may nevertheless occur and not be detected. Also, projection of any evaluation of the structure to future
periods is subject to the risk that procedures may become inadequate because of changes in conditions
or that the effectiveness of the design and operation of policies and procedures may deteriorate.

In planning and performing our audit of the Statement for the period April 10, 2006, through August 31,
2011, we considered CARE’s internal controls to determine audit procedures that are appropriate in the
circumstances for the purpose of expressing our opinion on the Statement, but not for the purpose of
expressing an opinion on the effectiveness of CARE’s internal control. Accordingly, we do not express an
opinion on the effectiveness of CARE’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control such that there is a reasonable possibility that a material
misstatement of the Statement will not be prevented, or detected and corrected, on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance




                                                                                                                      10.
Our consideration of internal control was for the limited purpose described in the second paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material
weaknesses may exist that have not been identified.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the results
of that testing, and not to provide an opinion on the effectiveness of the entity’s internal control. This
report is an integral part of an audit performed in accordance with Government Auditing Standards in
considering the entity’s internal control. Accordingly, this communication is not suitable for any other
purpose.

Restriction on Use

This report is intended for the information of CARE International, the United States Agency for
International Development, and the Office of the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18 U.S.C. 1905
should be considered before any information is released to the public.




                                                          Crowe Horwath LLP

July 11, 2014
Washington, D.C.




                                                                                                         11.
                                                                                   Crowe Horwath LLP
                                                                                   Independent Member Crowe Horwath International




                       INDEPENDENT AUDITOR’S REPORT ON COMPLIANCE


To the Board of Directors of CARE International in Afghanistan
Shar e Naw, Haji Yaqoob Square
Kabul, Afghanistan


To the Office of the Special Inspector General for Afghanistan Reconstruction
2530 Crystal Drive
Arlington, Virginia 22202


We have audited, in accordance with the auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards
issued by the Comptroller of the United States, the Special Purpose Financial Statement (“the
Statement”) of CARE International (“CARE”), and related notes to the Statement, for the period April 10,
2006, through August 31, 2011, with respect to the Partnership for Advancing Community Based
Education in Afghanistan funded by cooperative agreement number 306-A-00-06-00518. We have
issued our report thereon dated July 11, 2014.

Management’s Responsibility for Compliance

Compliance with Federal rules, laws, regulations, and the terms and conditions applicable to the contract
is the responsibility of the management of CARE International.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Statement is free of material misstatement,
we performed tests of compliance with certain provisions of laws, regulations, and contracts,
noncompliance with which could have a direct and material effect on the determination of financial
statement amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests
disclosed no instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of
that testing, and not to provide an opinion on compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the entity’s compliance.
Accordingly, this communication is not suitable for any other purpose.




                                               (Continued)

                                                                                                                12.
Restriction on Use

This report is intended for the information of CARE International, the United States Agency for
International Development, and the Office of the Special Inspector General for Afghanistan
Reconstruction. Financial information in this report may be privileged. The restrictions of 18 U.S.C. 1905
should be considered before any information is released to the public.




                                                         Crowe Horwath LLP

July 11, 2014
Washington, D.C.




                                                                                                      13.
SECTION 1: Summary Schedule of Prior Audit, Review, and Assessment Findings

Cooperative Agreement number 306-A-00-06-00518 funding the PACE-A project was included within the
scope of the audits conducted in accordance with OMB Circular A-133 for the fiscal years ended June 30,
2007 through fiscal years ended June 30, 2012. The audit reports included three findings relevant to the
PACE-A project and that could have a direct and material effect on the Fund Accountability Statement.
These findings and associated corrective action are summarized below:

Finding 2011-11
Issue: CARE did not include all of the provisions as required under 22 CFR 226 Appendix A in
procurement contracts.

Status: We reviewed CAREs standard award template and these requirements are now included as part
of the standard agreements. This matter is considered to be resolved and is not repeated in the audit
report.

Finding 2011-15
Issue: CARE had not followed up on corrective actions taken for three monitoring deficiencies noted
during reviews of subrecipients.

Status: We tested CAREs monitoring procedures and found CARE followed up on deficiencies noted
during reviews. This matter is considered to be resolved and is not repeated in the audit report.

Finding 2010-07
Issue: CARE had questioned costs in the amount of $31,131 related to shared costs not properly
allocated.

Status: CARE remitted the questioned cost to USAID for the shared cost pool allocation. This matter is
considered to be resolved and is not repeated in the audit report.




                                                                                                    14.
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
